NATIONAL CREDIT UNION ADMINISTRATION

      OFFICE OF INSPECTOR GENERAL




              YEAR 2000
       CREDIT UNION PROGRESS
  IN MEETING RENOVATION MILESTONE



        OIG-997      June 15, 1999




          _______________________

            FRANK THOMAS
          INSPECTOR GENERAL
                       TABLE OF CONTENTS

                                              PAGE

INTRODUCTION                                   1

BACKGROUND                                     1

OBJECTIVES                                     2

SCOPE AND METHODOLOGY                          2

OBSERVATIONS                                   3
    Credit Union Renovation Phase Status       3
    Credit Union Quarterly Y2K Reports         4
    Risk Ratings and Problem Identification    4


MATTERS FOR CONSIDERATION                      5




                                      ii
                      Year 2000 Credit Union Progress In Meeting Renovation Milestone




    Introduction         This is the third of the Office of Inspector General’s (OIG) series of
                         reports addressing the Year 2000 (Y2K) computer problem as it relates
to the National Credit Union Administration (NCUA) and federally insured credit unions
(FICUs). This report addresses the OIG review of federally insured credit unions’progress in
meeting the renovation phase milestone date established by NCUA.

Because of the time critical nature of the Y2K problem, and in order to provide the NCUA Board
with timely information, we are not making formal recommendations or asking for a written
response. Rather, we are offering certain suggested actions as matters for consideration by the
NCUA Board and agency management in this management report.

Other Y2K reviews in process include: credit union vendor status; the progress of high risk credit
unions; and credit union liquidity plans.



      Background           The NCUA, in addressing potential Y2K problems in FICU
                           information systems, adopted milestone dates for credit unions to
accomplish specific Y2K tasks. The purpose of the milestone dates was to ensure credit union
information systems were ready to function in a timely manner. Benchmark milestone dates were
developed to address awareness, assessment, renovation, validation/testing, and implementation
phases. In early 1998, NCUA established a policy of providing waivers or extensions to the
milestone dates. Waivers and extensions have been granted for individual credit unions and
blanket waivers for some credit unions with common information system vendors. If credit union
remediation efforts were not performed in a timely manner in accordance with the milestone dates
and waivers, the NCUA could take administrative action1 against the credit union because of
unsafe and unsound practices.

Our first Y2K review (Year 2000 Waiver Process Review, OIG Report Number 992) focused on
credit unions that requested waivers and extensions of milestone dates primarily for renovation.
The main reasons for the waivers and extensions were due to credit union data processing system
conversions and vendor inability to meet the milestone dates. Most credit unions were reported
by NCUA to be making satisfactory progress and had not requested waivers or extensions to the
milestone dates.

NCUA’s milestone for completion of the renovation phase was January 31, 1999. We were
concerned that there may be FICUs that had not met the milestone and were not accounted for by
waiver or administrative action. A credit union’s failure to meet the renovation phase milestone
without a waiver or administrative action in place could result in NCUA having a false picture of
credit union Y2K status.


1
 Administrative actions are defined as any action taken by NCUA to compel a credit union to take measures to
correct identified problems such as a regional director letter or preliminary warning letter to compel action.


                                                        1
                   Year 2000 Credit Union Progress In Meeting Renovation Milestone



     Objectives           Our objectives were: (a) to evaluate the progress of credit unions in
                          meeting the January 31, 1999 Y2K milestone for completion of the
renovation phase; and (b) to determine if the December 31, 1998 quarterly reports filed by the
credit unions with NCUA are reporting accurate results of the renovation phase.


 Scope and Methodology               We reviewed documentation for a sample of credit unions
                                     without waivers from two of the six regions to determine if
they had complied with the January 31, 1999 Y2K milestone date for completion of the
renovation phase. We also reviewed the sample of credit unions to determine if the December 31,
1998 quarterly reports filed by the credit unions with NCUA reported accurate results for the
renovation phase. The review was performed in Regions II and III and included thirty-three
FICUs in three asset strata sizes of less than $10 million; $10-50 million; and greater than $50
million. Our review began in February 1999 and the fieldwork was completed in April 1999.
Because of the limited review scope and our desire to provide NCUA management with timely
information, we followed the President’s Council on Integrity and Efficiency Quality Standards
for Inspections with the exception of the standards for fraud and other illegal acts and follow-up.

Our review was designed to answer the following questions:
• Was there clear and adequate guidance to staff and credit unions to resolve Y2K problems
   and if the examiner discussed the Y2K situation at the credit union;
• What is credit union current status regarding Renovation/Testing/Implementation phases;
• Did the last on-site contact identify Y2K problems including renovation and testing;
• If there were identified problems what action did the examiner recommend/take (such as
   follow-up, administrative action) and did this appear reasonable;
• If there appeared to be problems in meeting milestone dates, why wasn’t a waiver/extension
   action requested. Did this appear to be reasonable;
• If follow-up plans were identified, were the plans being followed; and
• Are current quarterly credit union Y2K reports accurate. How do quarterly reports compare
   to the examiner-prepared update information (e-form), FFIEC checklist and other
   information.

We performed the following procedures to meet our review objectives:
• Interviewed certain Central Office and regional office staff;
• Reviewed Central Office and regional guidance and procedures;
• Reviewed sample documentation for thirty-three FICUs (twenty-seven FCUs and six FISCUs)
   without waivers or extensions. Our review was limited to examination and contact
   documentation available in the regional offices. The documentation reviewed included the
   most recent documentation at the time of our review including:
       • Examination/contact Overview;
       • Examination/contact Confidential Section;
       • Examination/contact Supplementary Facts;
       • Document of Resolution;
       • Letter of Understanding and Agreement/Memorandum of Understanding;



                                                 2
                   Year 2000 Credit Union Progress In Meeting Renovation Milestone


       •   Regional Director Letter/State Supervisory Authority Letter;
       •   Most recent examiner E-form;
       •   Most recent credit union-prepared Y2K quarterly report to NCUA;
       •   Most recent FFIEC Y2K checklist;
       •   NCUA Y2K checklist (used prior to FFIEC checklist); and
       •   Other pertinent correspondence or documentation.




                                    OBSERVATIONS
NCUA has reported that most federally insured credit union mission critical systems were
renovated by the NCUA milestone of January 31, 1999. Our review found that many of those
credit unions not fully renovated by the milestone date were not covered by waivers or
administrative actions. NCUA has since made significant progress to address this situation.

We also found that there were some inaccuracies reported in the quarterly Y2K status reports
prepared by credit unions and submitted to NCUA. The inaccuracies resulted in at least one
region initially under reporting credit unions fully renovated for the period ended December 31,
1998. The agency has increased efforts to ensure the accuracy of the quarterly credit union status
reports.


                                                         NCUA reported that 95 percent of all
   Credit Union Renovation Phase Status                  natural person credit unions met the
milestone of January 31, 1999, for completion of the renovation phase for mission critical
systems. As of January 31, 1999, 515 of the 11,033 natural person and corporate credit unions
had one or more mission critical systems in renovation - 162 federal credit unions and 353
federally insured state chartered credit unions. However, only 327 credit unions were covered by
waivers or formal actions.

We reviewed documentation for 33 FICUs in two regions that were not fully renovated or with
waivers for the milestone date. As of March 31, 1999, of the sample 33 FICUs, the agency
reported 28 were fully renovated, 2 had applied for waivers, and the remaining 3 FICUs reports
contained renovation reporting errors.

As of March 31, 1999, the number of credit unions not fully renovated had dropped to 287
or 2.7 percent. Of this group, 215 received waivers; 62 received formal actions such as Regional
Director Letters or Letters of Understanding and Agreement; and the 10 remaining credit unions
are no longer considered non-renovated due to quarterly reporting errors, reclassification of
systems from critical to non-critical, and mergers.




                                                 3
                      Year 2000 Credit Union Progress In Meeting Renovation Milestone



      Credit Union Quarterly Y2K Reports                 FICUs without Y2K compliant
                                                         information systems are required to
prepare and submit quarterly status reports to NCUA. We reviewed the December 31, 1998
credit union prepared Y2K quarterly reports for the 33 sample FICUs. We found that there were
errors in a significant number of the submitted reports.

Over 50 percent of the reports we reviewed contained inaccurate information. Eighteen of the 33
quarterly reports in our sample incorrectly reported the percentage of critical systems which were
fully renovated. For example, some credit unions reported that they had no critical systems fully
renovated while at the same time, they reported that all systems were in the testing or
implementation phases. Inaccurate renovated system information resulted in one region initially
reporting that only 36 percent of its FICUs were fully renovated as of December 31, 1998. When
the data was subsequently reviewed by the regional office staff, it was determined that 70 percent
of that region’s FICUs were fully renovated.

Regional office staff in the second region of our review performed additional analysis on the
quarterly reports to ensure that fully renovated FICUs were properly reported. Regional queries
prepared on the December 31, 1998, Y2K quarterly reports to identify errors found critical
system totals that did not reconcile; renovation 100% column out of balance; and testing 100%
column out of balance.


    Risk Ratings and Problem Identification              NCUA is a part of the Federal Financial
                                                         Institution Examination Council (FFIEC).
The FFIEC developed a work program for use by the regulators in evaluating the Y2K status of
financial institutions. In addition to FFIEC guidance, the Central Office and regional offices
provided instructions and clarifications regarding risk ratings2. However, risk rating definitions
are open to interpretation and examiner judgment in assigning the ratings to individual credit
unions. Credit union examiners follow the FFIEC program including completion of a checklist
and overall risk rating during the credit union examination or Y2K contact. Examiners were in
the process of performing the examinations and Y2K contacts during the period of our review. It
appeared that examiners were addressing Y2K problems in accordance with available guidance.

Examiners are also required to submit a Y2K update to NCUA for the credit union via an
electronic update form (e-form) at the time of each examination or contact. A part of the e-form
requires the examiner to risk rate the credit union high, medium, or low based on the examiner’s
judgment of the credit union’s progress in becoming Y2K ready. The e-form update information;

2
  Examiners assign overall risk ratings of High, Medium, and Low to credit unions based on examiner judgment of
the credit union’s progress. “Use high, medium, or low risk categorization based on examiner judgment of the
credit union’s progress… . Credit unions rated as low risk are clearly demonstrating their progress towards
compliance both in terms of systems remediation and interfaces with third parties. Those credit unions rated as
high risk are not progressing towards compliance and in the examiner’s judgment, management at these
institutions does not have a sufficient understanding of the problem or its consequences. Credit unions rated as
medium risk fall somewhere between the other two ratings, indicating a need for supervisory attention but not to a
degree that necessitates intervention on NCUA’s part.” (NCUA Bulletin No. 13610.02(REV), dated July 27, 1998)


                                                        4
                   Year 2000 Credit Union Progress In Meeting Renovation Milestone


examiner prepared FFIEC checklist information; and credit union prepared quarterly Y2K reports
are used by the regional office and Central Office in determining overall Y2K readiness for credit
unions. We found that the risk ratings were in agreement in most instances where examiner
prepared FFIEC and e-form update documentation was available for comparable periods of time.

Our review of sample documentation indicated that, overall, examiners addressed problems noted
and identified plans to resolve the problems. The dates of contact in some instances were early in
the Y2K process when milestone dates had not expired and therefore the comments and plans to
resolve the problems were brief and general in nature. We did note that Documents of Resolution
were prepared when deemed necessary along with plans for future follow-up by the examiner.
Our review focused on documentation available at the regional office and did not include follow-
up with the examiner to determine if follow-up plans identified were actually carried out.




                      MATTERS FOR CONSIDERATION

The OIG is suggesting the following actions as matters for consideration by the NCUA Board and
agency management:

• NCUA should continue to develop quality control procedures to review and upload correct
  information via the Y2K quarterly reports to ensure accuracy of reporting and to ensure that
  Y2K milestones are met in a timely manner.

• NCUA regional offices should review and compare FFIEC risk ratings with most recent
  examiner e-form updates to ensure the accuracy of risk ratings for reporting purposes and to
  ensure that higher risk rated credit unions receive adequate and timely follow-up




                                                 5
